<html>
<title> - A REVIEW OF PROGRESS BY THE DEPARTMENT OF HOMELAND SECURITY (DHS), SCIENCE AND TECHNOLOGY DIRECTORATE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










                       REVIEW OF PROGRESS BY THE
                 DEPARTMENT OF HOMELAND SECURITY (DHS),
                   SCIENCE AND TECHNOLOGY DIRECTORATE

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            October 27, 2015

                               __________

                           Serial No. 114-45

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-764PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois



















                            C O N T E N T S

                            October 27, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    10
    Written Statement............................................    11

                               Witnesses:

The Honorable Reginald Brothers, Under Secretary for Science and 
  Technology, Department of Homeland Security
    Oral Statement...............................................    12
    Written Statement............................................    15
Discussion.......................................................    27

             Appendix I: Answers to Post-Hearing Questions

The Honorable Reginald Brothers, Under Secretary for Science and 
  Technology, Department of Homeland Security....................    48

 
                      A REVIEW OF PROGRESS BY THE
                 DEPARTMENT OF HOMELAND SECURITY (DHS),
                   SCIENCE AND TECHNOLOGY DIRECTORATE

                              ----------                              


                       TUESDAY, OCTOBER 27, 2015

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Welcome to today's hearing titled ``A Review of Progress by 
the Department of Homeland Security Science and Technology 
Directorate.''
    I'll recognize myself for five minutes and then the Ranking 
Member.
    Ongoing, productive research and development is crucial to 
protect our country and its people. Whether terrorists, cyber 
criminals, or drug or people smugglers, our adversaries are 
relentless and constantly adjust their tactics. In order to 
meet evolving risks and threats, we must continuously invest in 
R&D. Just as important, taxpayers' dollars committed to R&D 
must have a high return on investment.
    Today, the Committee will continue its review of the 
Department of Homeland Security's Science and Technology 
Directorate and its important work.
    In July 2014, the Committee held a hearing on technologies 
that would help secure our borders. Then in the following 
September, we held a joint subcommittee oversight hearing with 
the Homeland Security Committee itself. The two witnesses at 
the September hearing were the Director of Homeland Security 
and Justice at the Government Accounting Office and the 
Department of Homeland Security Under Secretary for Science and 
Technology, Dr. Reggie Brothers. The witnesses and our 
Committee members focused on a series of GAO reviews that found 
serious problems with management and coordination of R&D within 
the Department of Homeland Security.
    The GAO found the DHS's research and development efforts to 
be ``fragmented and overlapping.'' GAO also found hundreds of 
millions of dollars spent in previous years on duplicative R&D 
projects by other offices within the Department. GAO 
recommended that the Science and Technology Directorate develop 
stronger policies and guidance to define, oversee, coordinate, 
and track R&D across the Department.
    America's economy and security are threatened every day by 
cyber criminals and hackers. Unfriendly foreign governments 
launch regular cyber-attacks to undermine our national security 
and steal military and technological secrets. Cyber-attacks 
against U.S. government and private sector networks continue to 
grow at an alarming rate. But with each new breach of private 
and public electronic networks, it's clear the full scope of 
the threat we face has yet to be realized.
    At a subcommittee hearing last week, members of our 
Committee heard about the threat of cyber-attacks to the power 
grid. If just one major city were attacked in this way, the 
economic and societal consequences would be devastating.
    The House Science Committee approved the only cyber 
legislation in the last Congress, the Cybersecurity Enhancement 
Act of 2014, which was signed into law.
    Another area of particular concern is our government's 
failure to control our country's borders. Unsecure physical and 
virtual borders threaten our national and economic security. A 
country that has lost control of its borders has lost control 
of its future.
    The magnitude of these and other homeland security 
challenges require constant advances to our technological 
capabilities. For instance, about 12 million containers arrive 
in the United States every year, which must be screened by DHS. 
More than two million passengers fly domestically every day, 
who must be screened by the Transportation Security 
Administration. Nearly 100 million international air service 
passengers must be screened by Customs and the Border Patrol. 
And the annual number of land travelers to the United States 
who must be processed by our Border Patrol is approaching 250 
million people.
    There are not enough agents and screeners available to do 
this work. Instead, we must adapt, invent and, when necessary, 
create better technological solutions that are smarter, faster, 
less expensive, and more effective.
    This morning, we will hear from Dr. Brothers on the 
progress made in the implementation of the GAO's 
recommendations. He also will update us on the S&T 
Directorate's initiatives to help DHS component agencies meet 
the full spectrum of threats.
    [The prepared statement of Chairman Smith follows:]

        Prepared Statement of Committee Chairman Lamar S. Smith

    Ongoing, productive research and development (R&D) is crucial to 
protect our country and its people. Whether terrorists, cyber 
criminals, or drug or people smugglers, our adversaries are relentless 
and constantly adjust their tactics.
    In order to meet evolving risks and threats, we must continuously 
invest in R&D. Just as important, taxpayers' dollars committed to R&D 
must have a high return on investment.
    Today, the Committee will continue its review of the Department of 
Homeland Security's Science and Technology Directorate and its 
important work. In July 2014, the Committee held a hearing on 
technologies that would help secure our borders. Then in September, we 
held a joint subcommittee oversight hearing with the Homeland Security 
Committee.
    The two witnesses at the September hearing were the Director of 
Homeland Security and Justice at the Government Accountability Office 
(GAO) and the Department of Homeland Security Undersecretary for 
Science and Technology, Dr. Reggie Brothers. The witnesses and our 
Committee members focused on a series of GAO reviews that found serious 
problems with management and coordination of R&D within the Department 
of Homeland Security (DHS).
    The GAO found the DHS's research and development efforts to be 
``fragmented and overlapping.'' GAO also found hundreds of millions of 
dollars spent in previous years on duplicative R&D projects by other 
offices within the Department. GAO recommended that the Science and 
Technology Directorate develop stronger policies and guidance to 
define, oversee, coordinate and track R&D across the Department.
    America's economy and security are threatened every day by cyber 
criminals and hackers. Unfriendly foreign governments launch regular 
cyber-attacks to undermine our national security and steal military and 
technological secrets.
    Cyber-attacks against U.S. government and private sector networks 
continue to grow at an alarming rate. But with each new breach of 
private and public electronic networks, it's clear the full scope of 
the threat we face has yet to be realized.
    At a subcommittee hearing last week, members of our Committee heard 
about the threat of cyber-attacks to the power grid. If just one major 
city were attacked in this way, the economic and societal consequences 
would be devastating.
    The House Science Committee approved the only cyber legislation in 
the last Congress, the Cybersecurity Enhancement Act of 2014, which was 
signed into law.Another area of particular concern is our government's 
failure to control our country's borders.
    Unsecure physical and virtual borders threaten our national and 
economic security. A country that has lost control of its border has 
lost control of its future. The magnitude of these and other homeland 
security challenges require constant advances to our technological 
capabilities. For instance:

    <bullet>  About 12 million containers arrive in the US every year 
which must be screened by DHS;

    <bullet>  More than two million passengers fly domestically every 
day who must be screened by the Transportation Security Administration;

    <bullet>  Nearly 100 million international air service passengers 
must be screened by Customs and the Border Patrol; and

    <bullet>  The annual number of land travelers to the United States 
who must be processed by our Border Patrol is approaching 250 million.

    There are not enough agents and screeners available to do this 
work. Instead, we must adapt, invent and, when necessary, create better 
technological solutions that are smarter, faster, less expensive, and 
more effective.
    This morning, we will hear from Dr. Brothers on the progress made 
in the implementation of the GAO's recommendations. He also will update 
us on the S&T Directorate's initiatives to help DHS component agencies 
meet the full spectrum of threats.

    Chairman Smith. That concludes my opening statement, and 
the Ranking Member, Mrs. Eddie Bernice Johnson, the gentlewoman 
from Texas, is recognized for her opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    I am pleased to welcome Under Secretary Brothers back to 
the Committee. The last time you testified with us, you only 
had been in the job 5 months. I look forward to hearing your 
testimony about the changes you've implemented in the last 
year, and your thoughts on what this Committee can do in 
reauthorization to support your efforts in strengthening the 
security and resiliency of the United States through science 
and technology.
    We've previously heard testimony about GAO's 2012 
recommendation that DHS develop policies and guidance for 
defining, overseeing, coordinating, and tracking R&D activities 
across the department, and that S&T establish time frames and 
milestones for collecting and evaluating feedback from its 
customers. We have also heard criticism of test and evaluation 
procedures, the quality of external input, relationship with 
the operational components of DHS and other customers, and 
employees' morale.
    Under Dr. Brothers' leadership, the S&T Directorate has 
defined R&D, published a strategic plan, undertaken a major 
overhaul of the S&T Advisory Committee, and developed several 
program and management initiatives to strengthen the work of 
the S&T Directorate and make it a more effective partner for 
DHS.
    While I'm sure it was not easy, Dr. Brothers, you may look 
back at the development of the strategic plan as being the easy 
part of the job. Now you need to implement and institutionalize 
your vision.
    As you know, you are not the first Under Secretary to 
inherit an extremely challenged S&T Directorate, nor the first 
to undertake major reforms in an effort to right the ship. The 
constant change with every new leader has surely contributed to 
the challenges facing the S&T Directorate, as well as to very 
low employee morale.
    In your written testimony, you spelled out five priorities 
for your tenure as Under Secretary. I'd like to hear from you 
what you hope S&T will look like when it comes time to hand it 
over to your successor.
    This is meant to be a legislative hearing, so I hope that 
some of the discussion today will help guide our thinking about 
reauthorization of the S&T Directorate. The Committee on 
Homeland Security has already reported out a bipartisan 
reauthorization bill. That bill does a good job of addressing 
many of the challenges that have been identified over time. As 
I understand it, the Department provided significant technical 
assistance in the drafting of that bill, and some of the 
Department's own priorities for reauthorization are reflected. 
If there are any remaining concerns or requests for 
reauthorization provisions, now is the time for Members of this 
Committee to hear directly from the Under Secretary.
    I hope, Dr. Brothers, that you--that we can be a partner 
with you and unintentionally--not unintentionally place any 
obstacles in your way as you work hard to build a better and 
more effective S&T Directorate.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    [The prepared statement of Ms. Johnson follows:]

             Prepared Statement of Committee Ranking Member
                         Eddie Bernice Johnson

    Thank you Mr. Chairman. I am pleased to welcome Under Secretary 
Brothers back to the Committee. The last time you testified for us, you 
had only been in the job for 5 months. I look forward to hearing your 
testimony about the changes you've implemented in the last year, and 
your thoughts on what this Committee can do in a reauthorization bill 
to support your efforts to strengthen the security and resiliency of 
the United States through science and technology.
    We've previously heard testimony about GAO's 2012 recommendation 
that ``DHS develop policies and guidance for defining, overseeing, 
coordinating, and tracking R&D activities across the department, and 
that S&T establish time frames and milestones for collecting and 
evaluating feedback from its customers.'' We have also heard criticism 
of test and evaluation procedures, the quality of external input, 
relationship with the operational components of DHS and other 
customers, and employee morale. Under Dr. Brothers' leadership, the S&T 
Directorate has defined R&D, published a strategic plan, undertaken a 
major overhaul of the S&T Advisory Committee, and developed several 
program and management initiatives to strengthen the work of the S&T 
Directorate and make it a more effective partner to the rest of DHS.
    While I'm sure it was not easy, Dr. Brothers, you may look back at 
the development of the strategic plan as being the easy part of the 
job. Now you need to implement and institutionalize your vision. As you 
know, you are not the first Under Secretary to inherit an extremely 
challenged S&T Directorate, nor the first to undertake major reforms in 
an effort to right the ship. The constant change with every new leader 
has surely contributed to the challenges facing the S&T Directorate, as 
well as to very low employee morale. In your written testimony you 
spelled out five priorities for your tenure as Under Secretary. I'd 
like to hear from you what you hope S&T will look like when it comes 
time to hand it over to your successor.
    This is meant to be a legislative hearing, so I hope that some of 
the discussion today will help guide our thinking about a 
reauthorization of the S&T Directorate. The Committee on Homeland 
Security has already reported out a bipartisan reauthorization bill. 
That bill does a good job of addressing many of the challenges that 
have been identified over time. As I understand it, the Department 
provided significant technical assistance in the drafting of that bill, 
and some of the Department's own priorities for reauthorization are 
reflected. If there are any remaining concerns or requests for 
reauthorization provisions, now is the time for Members of this 
Committee to hear directly from the Under Secretary. I hope, Dr. 
Brothers, that we can be a partner with you and not unintentionally 
place any obstacles in your way as you work hard to build a better and 
more effective S&T Directorate.
    Again, thank you Mr. Chairman for holding this hearing and I yield 
back the balance of my time.

    Chairman Smith. Thank you, Mrs. Johnson.
    And I'll introduce our witness. Our witness today is Dr. 
Reggie Brothers, the Under Secretary for Science and Technology 
at the Department of Homeland Security. In this position, Dr. 
Brothers serves as the Science Advisor to DHS Secretary Jeh 
Johnson and is responsible for DHS research and development.
    Before his Senate confirmation in April 2014, Dr. Brothers 
was Director of Mission Applications at BAE Systems. He also 
has served as the Defense Department's Deputy Assistant 
Secretary of Defense for Research and as a Program Manager at 
DOD's Defense Advanced Research Projects Agency, or DARPA.
    Dr. Brothers earned his bachelor's degree in electrical 
engineering from Tufts University, his master's in electrical 
engineering from Southern Methodist University, and his Ph.D. 
in electrical engineering and computer science from MIT.
    Dr. Brothers, we welcome you and look forward to your 
testimony.

              TESTIMONY OF HON. REGINALD BROTHERS,

            UNDER SECRETARY, SCIENCE AND TECHNOLOGY,

              U.S. DEPARTMENT OF HOMELAND SECURITY

    Dr. Brothers. Thank you, and good morning.
    Chairman Smith, Ranking Member Johnson, and distinguished 
Members of the Committee, good morning, and thank you for this 
opportunity to discuss the role the Department of Homeland 
Security Science and Technology Directorate, or S&T. I'm 
grateful for the Committee's longstanding interest and support 
for the Directorate and the Department.
    A year and a half ago, I joined the Department with five 
priorities for the Directorate: develop visionary goals, 
produce an actionable strategy, foster an empowered workforce, 
deliver force-multiplying solutions, and energize a Homeland 
Security Industrial Base. These were based on feedback from S&T 
staff, from inside the Department, and from outside 
stakeholders including Congress. I'm proud to say that as an 
organization we've enjoyed remarkable success in each of these 
five areas. I believe S&T is emerging as a federal R&D 
organization tailor-made for today's fast-changing homeland 
threats.
    To begin with, last year we published Visionary Goals for 
S&T with an updated S&T Strategic Plan. The plan includes 
technology roadmaps for each of our major R&D investment areas, 
and we don't anticipate this being once every four years type 
of product. We've already updated once, and we're looking at 
interactive web-based capability moving forward. This is a tool 
not only to focus our internal energy and resources but to 
engage people and industry and organizations outside S&T to 
ensure progress towards common Homeland Security goals.
    We reduced the overall number of programs to make room for 
fewer, more impactful projects, and reprioritized our funding 
around the most pressing national, departmental and 
Congressional priorities. Reprioritization allowed S&T to put 
resources towards urgent areas of need such as unmanned aerial 
systems and to invest in ambitious new apex projects to tackle 
future challenges in areas like aviation screening and border 
situational awareness.
    In reshaping our R&D portfolio, we also recognize technical 
requirements and core competencies in areas like data 
analytics, identity management that are common across numerous 
projects regardless of specific subject areas. As a result, to 
avoid reinventing the wheel with each new project, our 
portfolio includes a new category of projects called engines 
that help us realize efficiencies compared to previous S&T 
approaches. These projects represent a novel approach in S&T 
and benefit from the diverse, broad-ranging expertise within 
the Directorate. As today's innovational research becomes 
increasingly interdisciplinary, the value of an engine for 
promoting efficient collaboration and cross-pollenization 
within the Directorate only increases.
    We've taken numerous steps to empower the workforce, 
incentivize collaboration in the organization, and boost 
morale. I'm proud to say that initiatives like S&T's new 
employee council, a concerted effort to better connect 
leadership and staff, is beginning to be reflected in S&T's 
Federal Employee Viewpoint Survey scores. In the most recent 
survey, we saw significant gains of 10 points or higher on 
questions related to workforce recognition--workplace 
recognition, leadership, and innovation. I'm encouraged to see 
the Directorate working together and rallying around each other 
but I know our work isn't complete. We'll continue building on 
our positive momentum.
    Some of the most beneficial changes at S&T involve how we 
partner with components, draw the requirements for our 
projects, and coordinate R&D across the Department. In an 
austere fiscal environment, and at the same time, a time of 
increasing threats, we must be strategic about our R&D work and 
how we prioritize our investments to make the largest impact in 
securing our country.
    By emphasizing cross-cutting solutions with greater reach 
in the most pressing Homeland Security challenge areas, we 
avoid being overly internally driven or too focused on highly 
specific end-user requests.
    As part of the Secretary's Unity of Effort initiative, S&T 
has relaunched departmental Integrated Product Teams as a 
formal mechanism for identifying technology capability gaps 
across the Department's mission areas. Though the Secretary 
only approved S&T's approach in August, we have already 
chartered and convened two of the five initial IPTs with two 
more expected by the end of this month. The IPTs are boosted by 
S&T initiatives like the Innovation Centers and the Pioneer 
program that embed S&T staff directly with components, and 
that'll facilitate better connection and better understanding 
of operational environments, tactics, techniques, and 
procedures.
    Finally, perhaps most importantly, S&T is making great 
strides in broadening the community of problem solvers and 
technologists that make up the Homeland Security industrial 
base. We launched prize competitions and accelerators to 
connect with startups and small businesses who may never have 
considered government as a partner. Our pilot effort for 
Homeland Security focus accelerators was particularly 
successful in demonstrating not only startup community 
interests in participating but also our ability to successfully 
spur products and companies to attract private investment and 
simultaneously meet the needs of Homeland Security operators.
    In the last year, we also opened three new university-based 
Centers of Excellence. We broke ground on construction for the 
cutting-edge Bio and Agro-Defense Facility. We expanded with 
our international partners including innovative public-private 
partnership with Israel. We've established a presence in 
Silicon Valley to expand our day-to-day, face-to-face contact 
with major innovations hubs outside the beltway. If we succeed 
with our expanded Silicon Valley presence, we look forward to 
using a similar outreach model in Los Angeles, Austin, Dallas, 
Chicago, Boston, and other hubs around the country.
    We're clearly trying a lot of new things at S&T. I've asked 
the directorate to be experimental, to try new things and think 
differently about processes. When it doesn't work, we scrap it. 
When it does, we expand it. As more of these experiments work, 
we are expecting to reap the benefits inside the Directorate, 
across the Department and with a growing group of stakeholders.
    I look forward to your questions. Thank you.
    [The prepared statement of Dr. Brothers follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Chairman Smith. Thank you, Dr. Brothers, and I'll recognize 
myself for questions.
    My first question is a lookback earlier this year at the 
perhaps as many 25 million federal employees who had their 
computers hacked. Almost all of them had applied for security 
clearances, so this was sensitive information that presumably 
was accessed.
    What are you all doing to prevent another such cyber-attack 
on federal employees?
    Dr. Brothers. That's a good question, sir. We have a robust 
cyber strategy, cyber research and development strategy. We 
look at how can we protect infrastructure. We look at a variety 
of different technologies and techniques to secure this 
infrastructure. We work----
    Chairman Smith. What tangible steps, though, have you all 
taken to try to prevent this from occurring again, not just 
strategies, but what have you actually implemented?
    Dr. Brothers. I understand. I understand, sir. So I can go 
back to--so right now, because of--right now we're working with 
NPPD. We are working with the Secret Service. We're working 
with the stakeholders to actually understand their systems, to 
understand where we can actually make some improvements. So I 
can say based on--we have some cyber technologies, some 
enhancements that I can talk about that we've done in the past.
    Regarding your current question, I can look to the types of 
things we're doing. We are doing research and cybersecurity 
research for the infrastructure. We're looking at software 
assurance. For example, when folks make--when software 
designers develop software, we've developed a research 
credibility so they can more--so they're able to actually 
determine whether or not their software is valid or not, and 
whether it has coding problems.
    Chairman Smith. Is it fair to summarize what you're saying 
by noting that you're still studying the problem as opposed to 
having taken any specific preventative measures?
    Dr. Brothers. So we have continuously since 2003 or so been 
working in cyberspace, and we have had a number of successes 
over the time. We've had something like 35 successful 
transitions of cyber technology into industry and into our 
stakeholders. The particular problems that you're talking about 
now working with government, we have been working, but we are 
now working to develop an enhanced strategy given some of the 
newer technologies.
    Chairman Smith. Well, it does sound like you haven't taken 
any specific, tangible steps. When you do, would you let us 
know?
    Dr. Brothers. Absolutely.
    Chairman Smith. And I hope it's sooner rather than later. 
It seems like by now there would have been some tangible steps 
taken.
    Dr. Brothers. I think--I'll be glad to come back with a 
classified briefing on the work we're doing.
    Chairman Smith. That's a fair response. Thank you.
    Next question is this, and this is something that I've been 
thinking about for a long time, and I think I'm grateful that 
it hasn't occurred yet, but what specifically is Homeland 
Security doing to prevent, say, a terrorist, would-be 
terrorist, from flying a small drone over a packed stadium of 
60,000 people perhaps watching a pro football game and having 
this drone release anthrax and killing most of the people who 
are present? What are we doing to prevent that kind of physical 
attack?
    Dr. Brothers. So your first question involves technology 
that, as you know, is rapidly changing. So the threats are 
changing with respect to cyber, with respect to the small 
drones, and the technology capabilities are changing rapidly as 
well.
    In order to address those, we are doing a lot to understand 
what the capabilities are, what the potential threats are. We 
have taken the lead in the interagency to look at the whole 
community response because there are a number of interrelated 
issues here with the drone problem. One is, how does a 
community actually respond, how do first responders respond. 
The other issue is, what technologies can we use to effectively 
detect, track, classify----
    Chairman Smith. I assume DHS is working with the FAA on 
various rules that would govern the flights of----
    Dr. Brothers. We are absolutely working with the FAA. We've 
got briefings with the entire Department of Transportation. The 
Secretary has convened a meeting of stakeholders across the 
government to discuss this issue. I think it's safe to say that 
we have already done a data call across the interagency to look 
at what capabilities not only do we have but the Department of 
Defense and others have to mitigate this threat, and we are 
moving forward with both these areas of, how does the whole 
community with respect to policy procedures and how to respond 
with technology.
    Chairman Smith. And that may be a subject of a classified 
hearing or discussion as well.
    Dr. Brothers. Absolutely.
    Chairman Smith. Last question is this. We have something on 
the order of 250,000 criminal immigrants at large in the United 
States. Clearly, these individuals are not supposed to be here, 
and just as clearly, they will commit many more crimes while 
they are present in the United States. A significant fraction 
will go on to be re-arrested. What is your S&T Directorate 
doing to assure real-time identification of illegal immigrants 
while they are still in custody?
    Dr. Brothers. We have a three-prong strategy in our Borders 
and Maritime Division. The strategy includes securing the land, 
maritime borders as well as cargo security. If I can talk about 
one of our programs when we look at land crossings, we're 
actually trying to combine information that can be shared by 
federal, state and local first responders. We're also 
developing----
    Chairman Smith. But I'm talking about criminal aliens, 
criminal immigrants who are actually in custody, and the 
identification problem we have with them. Do you have any 
progress reports on that?
    Dr. Brothers. I, sir, do not have progress reports on that. 
Again, as a science advisor, we are dealing mostly with how we 
protect and secure the borders, not necessarily some of the 
issues that you're dealing with.
    Chairman Smith. Okay. Thank you, Dr. Brothers. I appreciate 
it.
    And the gentlewoman from Texas is recognized for her 
questions.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Mr. Under Secretary, you're not the first Under Secretary 
to completely reorganize the Directorate in an effort to make 
things work better. What steps are you taking to try to 
institutionalize your reforms or at least those that show early 
success?
    Dr. Brothers. Thank you for the question. Let me--if you 
don't mind, let me talk about some of those areas.
    I think one of the challenges that I saw coming into the 
Department was how do we prioritize what do we do with respect 
to our investments because if you look at the QHSR, Quadrennial 
Homeland Security Review, for example, there's a tremendously 
broad set of challenges that we face, but yet we have a--we're 
resource-limited like all organizations. As such, the question 
becomes, what do--we should--how do we prioritize these 
investments. We've looked at then this Integrated Product Team 
that I mentioned in my opening statements. These teams are 
cross-departmental teams. They're made up of actually 
operational component leads. They're chaired by the component 
leads, and their charter, if you will, is to develop capability 
gaps the Department has in terms of what we can do. I think the 
chairman mentioned the challenge that we have on the border 
with respect to, they can't necessarily be solved just with 
more people, and this is where we really do expect to make a--
we do plan to make a difference. So we have set up a set of 
five different Integrated Product Teams that are new.
    Getting to your point, how do we make sure this doesn't go 
away, we put--the Secretary signed a memo instituting these 
Integrated Product Teams. Part of that memo had to do with how 
we impact acquisition as well. So one of the comments earlier 
that I think you made, ma'am, was on test and evaluation, and 
one of the challenges that major acquisition programs have is 
that they tend to fail if you only do rigorous test and 
evaluation from rejected source at the endpoint, at operational 
test and evaluation point, you may not catch some of the issues 
in the beginning. So what we're doing now is, we're going in 
the early part for developmental test and engineering. So 
that's another area that we're looking for codification of what 
we're trying to do as well as the work that we're doing in 
system engineering at the front end of the acquisition work.
    So I think what some of the changes I've made and I made a 
point when I first came into the office was to say form follows 
function. My goal wasn't to do some kind of overall very 
disruptive type of reorganization, just for the sake of 
reorganization, but to really look at what do we need to do to 
be more effective and impactful organization. And I think the 
ability to reprioritize--not--but the ability to properly 
prioritize, the ability to track R&D because, as you may know, 
the Secretary has also signed out a list of R&D criteria. So 
how do we actually determine what R&D is within the Department 
compared to what our investments are? That will help us--
getting to your point about the GAO report, that will help us 
actually define what R&D spends across the Department. Then 
using the IPT process, we're able to prioritize what kind of 
research and development we're doing.
    Ms. Johnson. The Homeland Security Science and Technology 
Advisory Committee, or HSSTAC, has some concerns of feeling 
underutilized. Have you attempted to include them?
    Dr. Brothers. Again, thank you for the question. Yes, we 
have. So what I've taken, I've taken the model from the size of 
the Defense Science Board, quite frankly, has been trying to 
reinvigorate the committee. I realize that our problems aren't 
just only science and technical based in the Department--the 
Directorate. What we really need is strategy and management 
help as well.
    So what I've asked for is to increase the number of members 
of that Science and Technology Board so that part of that 
board, half the board, roughly, will be science technologists. 
The other half roughly will be folks from management and 
strategic and strategy communities. The sense--you know, my 
goal is to have a diverse set of thought leaders to help us in 
all these areas that we face across the Directorate.
    Ms. Johnson. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman Smith. Thank you, Mrs. Johnson.
    The gentleman from Illinois, Mr. Hultgren, is recognized 
for his questions.
    Mr. Hultgren. Thank you, Mr. Chairman.
    Thank you, Dr. Brothers. Good to see you again. I 
appreciate your work, and I'm glad you're here with us today.
    Dr. Brothers. Thank you.
    Mr. Hultgren. I can say that we all do appreciate the 
opportunity to be able to hear about ways that we can help the 
Department of Homeland Security better align its Science and 
Technology Directorates certainly to better serve our dedicated 
Homeland Security professionals but ultimately to keep our 
constituents safe.
    I see technology as a force multiplier that can keep our 
Homeland Security professionals safe by avoiding unnecessary 
danger while also giving them a reach that if we do our job is 
unmatched by our adversaries.
    I also applaud your goals of energizing a Homeland Security 
industrial base and producing an actionable strategy based on 
visionary goals.
    The last time you were here before us, I asked you a number 
of questions on our technology transfer capabilities and the 
disconnect that sometimes exists between our end-users and 
those who are charged with developing new technologies. At our 
previous hearings with Mr. Mower regarding your Directorate, I 
discussed how DHS is utilizing our other assets outside of your 
agency.
    Today I'd like to ask some questions about how DHS is best 
utilizing and perhaps investing in the numerous federal 
research assets we have available to meet your goals. To me, 
this is really about deriving a maximum efficiency from our 
taxpayer dollars. It's my understanding that DHS primarily 
interacts with DOE through a modified work for others process, 
or WFO process. Is this still a satisfactory process, and are 
there other forms of agreement such as the cooperative research 
and development agreement, or CRADAs, or agreements to 
commercialize technology which may better serve your agency 
while emerging your industrial base?
    Dr. Brothers. I think that we have a very strong 
relationship with the DOE laboratories. I think that because of 
the way the relationship between us is structured, I think 
we're able to leverage that relationship effectively and 
efficiently.
    You brought up other issues including how do we reach out 
to industry, and you brought up CRADAs. I think CRADAs is a way 
that we can talk to industrial partners effectively. I think 
OTA--other transaction authority--is also an effective way that 
we can actually deal with our industrial partners in this as 
well.
    Mr. Hultgren. So you think there are some opportunities to 
use some of these other forms and that just sticking with the 
work for others, modified work for others process maybe isn't 
sufficient, that there needs to be some other things as well.
    Dr. Brothers. I think that we have a number of potential 
vehicles at our disposal. I think a challenge is determining 
where they're best used and using them as such. I think 
sometimes we don't necessarily use all of them as effectively 
as we could, and I've been pushing to do that. I can mention 
the OTAs as well as the Prize Challenge Authority.
    Mr. Hultgren. Let me move on. In your written testimony, 
you highlighted your need to screen cargo with a minimal impact 
to the pace of travel and speed of commerce. I wondered how 
familiar your agency is with the capabilities at the DOE 
National Labs. In particularly, DHS works extensively with a 
few of the larger multipurpose labs but it is familiar with the 
equally important and unique capabilities that reside at 
single-purpose labs. One I have special interest in is 
Fermilab, which is a leader in accelerator technologies that I 
believe could be applied for these cargo screening missions. 
How familiar is the lab with these unique and individually 
focused labs?
    Dr. Brothers. So I can't speak to all of our leadership. I 
do know that we have had many visits to all the laboratories. I 
know that in our Transportation Security Laboratory, for 
example, that we are demonstrating prototypes of screening 
technology from the DOE laboratories, so we make a point of 
actually going to laboratories, understanding what they have. 
For example, our Director of HSARP is taking a tour through DOE 
laboratories. This is important because one of the major things 
that we can do as an organization is to understand what the 
state of art is across what I like to call the S&T ecosystem. 
That ecosystem is our laboratories, our industry, et cetera. 
And so that is a charge I've given to our leadership and it was 
taken very seriously and very passionately.
    Mr. Hultgren. And I would hope you look again at these 
unique labs, as I mentioned, Fermilab. I think there could be 
some real synergy there that would make some sense. I wonder, 
would DHS be willing to invest in infrastructure at the 
national labs, whether lab space or specialized equipment, to 
advance the Homeland Security mission. DOE or other national 
labs cannot always afford to maintain the types of capabilities 
needed for a broad variety of national security missions.
    Dr. Brothers. I think we're always interested and 
determined to give the best technical solutions to our 
stakeholders, and we do what is needed to make that happen, 
whether it's investing in grants for universities or contracts 
for laboratories, what have you.
    Mr. Hultgren. I do think the labs are a perfect spot. I 
talk about the ecosystem of science as well. But it might take 
some investments, you know, certainly on the infrastructure 
side of things, but I think the payoff could be huge again for 
those that we're called to serve.
    My time is expired. I yield back, Chairman. Thank you.
    Chairman Smith. Thank you, Mr. Hultgren.
    The gentleman from Virginia, Mr. Beyer, is recognized for 
his questions.
    Mr. Beyer. Thank you, Mr. Chairman.
    Dr. Brothers, thank you for being with us.
    Dr. Brothers. Thank you.
    Mr. Beyer. I've always felt that one of the most important 
jobs of the leader is to create a culture where workers are 
happy, motivated, filled with passion for the mission, and yet 
poor Homeland Security tends to rank last in the federal 
employee viewpoint. But you've taken the step----[audio lost 
for 3 minutes and 12 seconds].
    Dr. Brothers. I have to have flex capacity, so as such, 
from a research perspective, we develop these Integrated 
Product Teams but we've also developed a set of priorities 
based on Presidential priorities, Congressional priorities, 
Secretarial priorities and some of my own priorities that go 
into the same mix of how we prioritize all these things.
    So for example, the Chairman mentioned UAVs, small drones. 
That's part of the Secretary's priorities. Countervailing 
extremism is another one of those as part of the Secretary's 
priorities.
    So the way this all works is we have these Integrated 
Product Teams across the areas--aviation security, 
cybersecurity, border security, counterterrorism and 
biosecurity. I might say we also have work on our first 
responders as well. That information--they come up with 
capability gaps working with the components heads. That 
information is flowed up to what we call the senior research 
council chaired by my deputy. That senior research council then 
prioritizes all of those lists. To that are added these pop-up 
things that we were talking about because, again, I've got to 
have flex capacity to deal with some of these pop-ups that we 
didn't anticipate, so-called black swan events. So that's how 
we're actually prioritizing these kinds of things.
    Mr. Beyer. Okay. Quickly, you're the fourth Under Secretary 
for S&T. You've reorganized. I love your five Visionary Goals. 
But from a Congressional perspective, it looks like every time 
we get a new Under Secretary, everything gets reorganized and 
new goals. Should we institutionalize this Congressionally, or 
how do you give us some sense of stability and long-term 
action?
    Dr. Brothers. So I think there's always this tradeoff 
between how much do you codify versus how much flexibility do 
you give an incoming Under Secretary. My goal was not to do a 
tremendous reorganization. In fact, it's not so much--I've 
actually maybe pointed in what I consider a more focused way. 
I've tried to actually align our resources towards these 
Visionary Goals with a five-year strategy and with given 
realistic prioritization based on the IPTs.
    I think it's important that we move--we continue to have 
IPTs, that we continue S&T's involvement in the acquisition 
process in the front end, not just the back end. I think these 
things are important. I think in terms of specific areas, the 
specific ways the organization is structured, because of the 
fluid nature of the threat, and we discussed cyber, we 
discussed UAVs because the fluid nature of the threat, I would 
hate to hamstring the next Under Secretary's hands by being 
overly prescriptive in the actual structure of S&T, but there's 
certain aspects of it, like I said, IPTs, the importance of us 
being involved in the front end of acquisition that I think are 
really important to be ongoing.
    Chairman Smith. Thank you, Mr. Beyer.
    The gentleman from Alabama, Mr. Palmer, is recognized.
    Mr. Palmer. Thank you, Mr. Chairman. Thank you, Dr. 
Brothers, for being here this morning.
    I want to ask you about an audit from the Office of 
Inspector General regarding a contract with NVS dealing with 
technology that the Chairman mentioned in regard to a 
biothreat. According to OIG, S&T may have wasted $23 million 
without getting adequate deliverables. One of the things that 
the OIG report found was that you had a lot of employee 
turnover in the program management. Is that an issue?
    Dr. Brothers. So right now I don't see that as being an 
issue. I think that we have new controls that we put on that 
the report recommended that we take three types of actions.
    Mr. Palmer. Right.
    Dr. Brothers. We've taken those actions. We're developing a 
program tracking. We've improved our program management guide. 
So I think that we have responded to the GAO in kind. I would 
mention, though, that this program was stopped after four 
years, and while the way it was stopped may not have been 
optimal, which is we actually went to the IG ourselves, 
technology changes over four years, and I mentioned earlier how 
quickly technology changes. There's another case of rapid 
technology change in the capability of industry as well.
    Mr. Palmer. I think in your response to OIG, you said that 
there's still a need for this technology. Is that being pursued 
through other contracts?
    Dr. Brothers. Quite honestly, because it's ongoing 
litigation, I can't get into a lot of details of this right 
now.
    Mr. Palmer. Okay. I have a couple other questions too for 
you, Dr. Brothers.
    The President's budget requests a substantial cut to S&T 
Directorate's budget compared to fiscal year 2015. How do you 
account for this?
    Dr. Brothers. I'm sorry. Could you repeat the question, 
please?
    Mr. Palmer. The President's budget requests a substantial 
cut to the S&T Directorate budget compared to fiscal year 2015, 
and I'm just asking, how do you respond to that reduction?
    Dr. Brothers. We support the President's budget. I think 
this is something that we have to deal with within our 
capabilities. This gets back to how we prioritize the type of 
investments we have and why we can't respond to all threats 
across the entire domain of impact versus probability of 
occurrence.
    Mr. Palmer. And then my last question is, a 2012 report by 
the GAO recommended that S&T develop policies and guidance for 
reporting R&D activities across the Department, nothing that 
DHS didn't even know the total amount being spent on R&D at 
DHS. Has Science and Technology developed these policies?
    Dr. Brothers. So yes, and so that's what I was mentioning 
earlier, that part of the problem we had when that report came 
out was, there wasn't a definition of R&D. So when folks were 
reporting the R&D, they didn't necessarily have the same 
guidelines for what R&D was. The Secretary has signed a 
definition of research and development, which is--which goes 
along with what the Department of Defense and NASA has as well, 
and now we're working on a directive to do a data call based on 
those--based on that criteria.
    Mr. Palmer. And lastly, so are you confident that S&T has a 
clear idea of all the research and development that's being 
done at DHS?
    Dr. Brothers. I'm confident that we now have the structures 
to figure that out.
    Mr. Palmer. Are you looking at overlaps, duplications?
    Dr. Brothers. We are. So we're going to start having annual 
reviews. When I was at the Department of Defense, I was part of 
a team that set up annual reviews of the Service's research and 
development budgets across the Department. That is something 
that we will be doing in DHS as well.
    Mr. Palmer. Well, obviously we need metrics to show how 
effective S&T has been. So how would you recommend Congress 
measure return on the investments in regard to appropriations 
to S&T?
    Dr. Brothers. So we have a portfolio review process. That 
portfolio review process has a variety of metrics in it. I'd be 
happy to come and brief you on that process.
    Mr. Palmer. Thank you very much.
    I yield the balance of time, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Palmer.
    The gentleman from Texas, Mr. Weber, is recognized.
    Mr. Weber. Thank you, Chairman, and thank you, Dr. 
Brothers.
    In your discussion with Congressman Palmer, you talked 
about employee turnover. How many employees is in your 
organization?
    Dr. Brothers. We have, I think, on the order of 400 
civilian federal workers.
    Mr. Weber. Four hundred?
    Dr. Brothers. It's on that order.
    Mr. Weber. And you talked about turnover, and you said you 
didn't see it as an issue, and you've been there since 2014. Is 
that right?
    Dr. Brothers. 2013.
    Mr. Weber. 2013. Okay. What was the rate of turnover before 
you got there? Are you able to look at those two comparison 
numbers?
    Dr. Brothers. I can. I don't have the numbers off the top 
of my head. I'll be glad to get them back to you, though.
    Mr. Weber. Okay. So have you taken a look at what they were 
historically before you got there than what you got there and 
compared those to other agencies?
    Dr. Brothers. I don't have the--we have. I don't have those 
numbers. I do know that since I've been there, the turnover has 
dropped. We can get to you those numbers, though.
    Mr. Weber. Either that's a good thing or you've made it a 
lot easier on them. I'm not sure, so----
    And do you categorize--in your--well, let me do it this 
way. The mission statement says that you all's mission is to 
improve Homeland Security by working with partners to provide 
state-of-the-art technology and solutions that help them to 
achieve their missions, quote, unquote. Have you taken a look 
at that statement and decided in your matrix a measurable 
matrix to, number one, improve, number two, who all your 
partners are, number three, what is state-of-the-art technology 
and solutions, number four, what are their missions, and number 
five, what it doesn't say is, do you have a way to measure your 
success in those four areas?
    Dr. Brothers. So I think from my time in industry, from my 
time in Department of Defense and here, there's always of a 
challenge for research and development to quantify a return on 
investment. That said, I understand the need for the Committee 
to understand what kind of metrics we can have for success. I 
do understand that.
    I think that we have done a--now with the processes that I 
talked about with respect to these IPTs, we will have agreed-
upon priorities across the Department. We will be developing a 
research and development plan that was signed out by the 
Secretary. So the Department will agree on a research and 
development plan. Then the question is, how do we actually 
achieve that--achieve those solutions. So I think that then you 
start measuring our success based on how we start closing those 
gaps that will determine the capabilities from the IPTs.
    Mr. Weber. You mentioned, talking about the IPTs, and I 
forgot who it was in dialog with, that there were four 
priorities. You call them Presidential, Congressional, 
Secretary, and then your own. Would you take those four mission 
statements, again, improving Homeland Security, helping your 
partners, state-of-the-art technology, and their missions--are 
you able to integrate those into the four? I mean, because 
those are four priorities that actually in those four areas, 
there would be some overlap. Some things would happen in the 
Presidential realm that wouldn't happen in the Congressional 
realm and vice versa.
    Dr. Brothers. That's absolutely true.
    Mr. Weber. How do you make those priorities?
    Dr. Brothers. So these are--so those priorities are really 
made in discussions and conversations with leadership.
    Mr. Weber. Do you have a team that's designated to 
Congressional priorities and a team that's designated to 
President and Secretarial and then your own, to use your words?
    Dr. Brothers. So I can't say there's a team right now. This 
is a work in progress. We just started this based on input that 
we've gotten from our working with staff members, with Hill 
members. I'm trying to understand what Congressional priorities 
are as well as working directly with the Secretary but we're 
working on formalizing this process. A question came up 
earlier, how--you know, how do we codify these things. This is 
one of the things again that has to be more formal.
    Mr. Weber. What do you see as Homeland Security threats? 
And I've just listed a few--drugs. I mean, you talk about 
drones, terrorists, weapons of mass destruction. Do you 
categorize and prioritize those threats?
    Dr. Brothers. So the--yes and yes. The IPTs are where 
you're categorizing the threats based on QHSR, again, aviation 
security, border security, these kinds of things, and then 
those threats, based on capability gaps, are prioritized 
through the IPT process and they're prioritized through 
discussions in partnership with our operational components.
    Mr. Weber. Okay. Well, obviously, we wish you all the 
success and we want to, you know, make sure that you get your 
job done. Is is there a mechanism in place where in the process 
of achieving that success you can share that with states, 
especially and particularly the border states?
    Dr. Brothers. Yes.
    Mr. Weber. And so you have that mechanism in place already?
    Dr. Brothers. So there's a mechanism in place right now 
with our first responders. The first responders group right now 
has publicly available information on what some of the 
capability gaps are, so that's available, and that's the goal 
for the other IPTs as well.
    Mr. Weber. Okay. Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Weber.
    The gentleman from Texas, Mr. Babin, is recognized for his 
questions.
    Mr. Babin. Thank you, Mr. Chairman. Thank you, Dr. 
Brothers.
    How does S&T determine the allocation of resources to basic 
research, applied research, and development? How do you 
prioritize that?
    Dr. Brothers. So when I first came on board, the previous 
Under Secretary, Dr. O'Toole, because of external pressures, 
she had put most of our investment in nearer-term research. One 
of the comments that I've made a couple times has been I think 
that it's important that we have a more balanced portfolio than 
just all near term. I think it's important because as we start 
looking at, as I mentioned earlier, as we start looking at what 
industry has to offer, what university research has to offer in 
terms of potential solutions, we also have to realize there's 
some things industry does invest in, and those areas we have to 
be willing to put in a long-term investment profile. So 
therefore, we have to look at--we can't just look at what comes 
up in the next 18 months. We have to say if we're going toward 
these visionary goals, how do we actually do that? If these 
visionary goals are 15, 20, 30 years out, what do we need to 
put in place to actually start approaching those things? And I 
think that requires an investigation profile that's not just 
near term but involves--can involve some aspects of basic 
research as well.
    Mr. Babin. Thank you. And what has S&T done to improve 
state and local government access to technology that improves 
the safety and effectiveness of law enforcement?
    Dr. Brothers. Sure. So I think we have a SAVER program with 
our first responders group, which----
    Mr. Babin. Did you say SAVER?
    Dr. Brothers. It's called the SAVER program, which frankly 
is--it starts to compare and contrast different technologies 
for first responders. We have another group that looks at 
capability gaps for first responders. So I think--and this is 
all shared with state and locals.
    Mr. Babin. Okay. Let's see. A July 31st, 2014, GAO report 
entitled ``Continued Actions Needed to Strengthen Oversight and 
Coordination of Research and Development'' states that DHS had 
not yet determined the most effective path to guide R&D across 
the Department. Does DHS now have an effective way to guide 
R&D?
    Dr. Brothers. As of the signing of the memo on IPTs, I 
think we do. I think we absolutely do.
    Mr. Babin. Okay. If that's so, then how does DHS determine 
the most effective path to guide R&D and why didn't DHS do this 
since its very inception?
    Dr. Brothers. So the IPT process, that is something I'm 
bringing back. It did exist in the past for a variety of 
reasons. I think one thing that was not codified, it was an 
S&T-only process. The process is now one that spans the 
Department based on the memo I mentioned. So I think there's 
more institutional buy-in, if you will, to the IPT process. So 
this is something that was done before, it was stopped, and now 
we're starting it again, and I think on better, more solid 
footing.
    Mr. Babin. Well, I congratulate you, but what happened to 
your predecessors?
    Dr. Brothers. What happened to them?
    Mr. Babin. Well, why----
    Dr. Brothers. Why didn't they do that?
    Mr. Babin. Yes.
    Dr. Brothers. So two predecessors ago started the IPT 
process. Admiral Cohen started the IPT process. He started it 
based on his knowledge of something called future naval 
capabilities in the Navy. I'm familiar with them from when I 
was in DOD. My immediate predecessor chose to discontinue 
those. Again, I think part of the challenge was, the original 
IPTs were not necessarily supported as strongly by the entire 
Department as they are right now.
    This has to do with the Secretary's Unity of Effort. You 
know, the Secretary's Unity of Effort has made a significant 
difference in the entire Department, and right now the IPTs are 
part of this Unity of Effort that the Secretary has codified.
    Mr. Babin. Okay. Do you have reason to believe that GAO 
would concur with this?
    Dr. Brothers. I can't speak for GAO but I think it's a 
compelling argument.
    Mr. Babin. Okay. I yield back the balance of my time, Mr. 
Chairman. Thank you.
    Chairman Smith. Thank you, Mr. Babin.
    Mr. Babin. Thank you, Dr. Brothers.
    Chairman Smith. The gentleman from Illinois, Mr. Lipinski, 
is recognized for his questions.
    Mr. Lipinski. Thank you, Mr. Chairman, and I want to thank 
you, Dr. Brothers, for your testimony.
    You stated in your testimony that you're using Centers of 
Excellence to plug into the research community, especially on 
urgent issues such as countering unmanned aerial systems and 
violent extremism. I understand that S&T currently has eight 
Centers of Excellence and set up three more last year. One of 
these new centers is the Center for Borders, Trade, and 
Immigration. There's also a Border Security Integrated Product 
Team. So I want to ask, how do you ensure that the research 
being done at the Centers of Excellence is integrated with the 
overall R&D priorities of the Directorate and that findings 
from the university partners make their way past the basic 
research phase to the development and testing work?
    Dr. Brothers. Thank you. Having done university work 
myself, having sponsored university work both from industry and 
from department of Defense, I can tell you that I was really 
amazed at how different the S&T is doing university-funded 
research, sponsored research. We're actually coming in the 
front end. So a lot of grants that go to universities are just 
that, they're grants. They don't necessarily have a research 
plan that's defined outright. Our team--our team in the Office 
of University Programs does an excellent job developing a 
research program before the work actually begins, and that 
research plan quite frankly involves the components. I spoke at 
one of the starting points for one of the Centers of 
Excellence, and I really had to remark at the engagement of the 
components of the science engineers at S&T in developing an 
effective and a relevant research plan for these universities. 
So my goal of aligning the research of the University Centers 
of Excellence with those of the IPTs, with those of the 
priorities, I think is a reality based on the way these 
programs are structured.
    Mr. Lipinski. Thank you. I also wanted to move on and talk 
a little about the partnerships with the private sector. In 
your written testimony, you state that the new Collaborative 
Innovation Experiments program helps S&T reach out to non-
traditional performers. Who's your target audience, and how are 
they an asset to the R&D program?
    Dr. Brothers. Sure. So coming on board from DOD, I was very 
familiar with the DIB, defense industrial base, large 
companies, the Lockheeds, the General Dynamics, BAEs, et 
cetera. One of my concerns coming in, though, was what 
companies are going to provide the equivalent Homeland Security 
industrial base to S&T. We're different than DOD. A lot of what 
we buy is off the shelf, and as such, we have to strategically 
shape our shelf. To strategically shape our shelf, we have to 
be able to have visibility, have influence and impact on all of 
the creative individuals in the country and internationally as 
well. So a lot of what we've been doing recently is reaching 
out to strategically shape their shelf, has been reaching out 
to the companies in Silicon Valley and Dallas and Austin and 
Chicago and L.A., et cetera, as a way to increase the creative 
minds that are tackling our problems.
    And I was out in Silicon Valley, and I started asking some 
of the investment professionals, the venture capitalists out 
there, you know, what would really get the creative people out 
there involved in solving our problems, and their answer was 
very simple. They said look, we've got a lot of smart people 
here, a lot of smart people, and they're interested in solving 
hard problems that make a difference. Hard problems that make a 
difference. And I think that as an organization, as a 
Department, Homeland Security has an incredibly compelling 
mission, and what you find when you talk to these folks, these 
new companies, potential entrepreneurs, they get really excited 
by solving these problems. They just haven't necessarily known 
about them in the past.
    So what we've done then is, we've had a coordinated 
outreach, and I'm very proud to say that last year we had an 
idea. The idea was, could we in this whole sense of 
strategically shaping the shelf, could we indeed develop 
accelerators. Just a simple question, right? Can we actually 
develop business accelerators in our field, in the field of 
solving Homeland Security problems, that also represent 
effective businesses. So we tried that, and there were three 
fundamental questions we needed to answer. One question was, 
does anyone care, will we get responses from the solicitation 
to have accelerators? The second question was, if anybody 
cares, will there be good answers, will we get relevant, 
effective solutions? The third question was, are these viable 
businesses?
    Last September--so this was a little over a year ago, 
actually about a year ago--in September after we'd done this, 
we had 150 companies or so actually apply. So the first 
question was affirmative. There are a lot of creative 
professionals out there who are interested in solving our 
problems. Coming through this accelerator program--one of the 
accelerators was based in Dallas and one was based in Chicago--
we had 18 companies. These companies had excellent solutions 
that not only had applicability to first responders because our 
accelerators are based on first responder technology, and if I 
can segue, it was really concerned with giving first responders 
situational awareness: where am I, where are my team, these 
kinds of things. And then we had these companies, and they 
solved problems with situation awareness for first responders 
but they also had commercial value as well. About half of these 
have interest from follow-on funding.
    So what we've found is that the hypothesis we had, can we 
get creative individuals across the country interested in 
solving our problems, is yes. Yes, we can. Not only that, I've 
reached out to larger companies, and one of the things that I 
think is unique about our strategy is we've tried to make 
roadmaps that are in the back of our strategy, technology 
roadmaps, that a CTO at a large company would get that would 
match what they're looking for. Because one of the challenges 
large companies have is, how do you use your IRAD--your 
independent research and development dollars--effectively? 
Well, if you have a roadmap, which you know that your potential 
government customer is using, that can help a lot, and that can 
help the leadership of those companies make the effective 
business case to their leadership to work in a particular area.
    Mr. Lipinski. Thank you, and I want to--I know I'm out of 
time. I just want to say I just started, with Mr. Hultgren, a 
prize caucus here, and I want to ask you following up about the 
Directorate's plans to use prize authority. But thank you. I 
yield back.
    Dr. Brothers. Thank you.
    Chairman Smith. Thank you, Mr. Lipinski.
    The gentleman from Georgia, Mr. Loudermilk, is recognized.
    Mr. Loudermilk. Thank you, Mr. Chairman, and thank you, Dr. 
Brothers, for being here.
    What you're doing is very broad, and I applaud the efforts 
that you've taken so to kind of get you prepared for the 
direction I'm going, I want to talk about transportation 
security and then port security as well.
    I applaud you at the screening at speed. Those of us who 
travel often really appreciate that. But at the same time, I 
have some grave concerns. As you know, the DHS IG released a 
report a few months ago where they failed 95 percent of the 
time of inspectors getting banned items through TSA 
checkpoints, and also within the last few months, I personally 
know of three individuals who inadvertently made it through 
screening points with scissors, a flathead screwdriver, and one 
who actually in his checked bags had live rounds loaded in a 
magazine that were not detected.
    Through researching some of where we are, and where I'm 
getting is, I'd like your input as to where is that balance and 
where are we going in this because that concerns me greatly. 
I'm also on the Homeland Security Committee. I've been on 
foreign fighter task force. And so yes, we definitely 
appreciate the speed of life going through security checkpoints 
but to balance that with security, we weigh heavily on the 
technology aspect, and I do know in my research that we were 
close to having a new set of standards for next-generation 
screening technologies but that was put on hold recently to go 
back to the drawing board.
    I do know, and I've visited some new technologies out there 
that use high-energy X-ray to give not only three-dimensional 
but four-dimensional view of what's in a bag using basically 
medical technologies such as biopsies to be able to tell the 
contents or the material, what is likely in the material that's 
in a bag.
    Can you tell me where are we in advancing to actually field 
the new generation of scanning technologies and, you know, and 
also maybe opine, have we gone too far in the speed and 
efficiency and we've given up on some of the security?
    Dr. Brothers. So let me go back--thank you. Let me go back 
to the vision. I think the vision, while it talks about 
screening at the speed of light, there's always, as you know, 
this tradeoff between security and the speed of commerce. I 
don't think in any means did that vision mean that we're not 
trying to improve security. I think what it means is, you need 
to look at the airports, ports of entry holistically. So right 
now, you know, you may look at just the screening equipment. 
What are other aspects of the process from ticketing on out 
that you can actually impact to improve security?
    I think with respect to the particular technologies, we're 
looking a different technologies, different phenomenologies as 
a way of screening for a variety of threat materials, if you 
will. We have a transportation security laboratory in New 
Jersey that works with TSA to test these types of technologies. 
There's an integration facility in DC. that is used for 
further--more operational testing.
    So I think that there is an understanding across the 
Department to look at this problem holistically, to use as much 
of the newer technology as possible, but there's another issue 
as well. Quite frankly, I learned this going back to DOD as 
well, the importance of the human dimension. So I was involved 
in some studies when I was in the Department of Defense, and 
what was quickly apparent to me was how important the human 
dimension really is. We can get caught up in the importance of 
technology as much as we want but the tactics, techniques and 
procedures that the humans perform are incredibly vital to this 
combined function of the human-machine subsystem if you will. 
And so we're also involved in research in looking at how to do 
better training of the transportation security officers as 
well.
    So I think we're looking at it not just from the checkpoint 
perspective, we're looking at the entire point of entry 
perspective and we're also looking at it from the training 
perspective.
    Mr. Loudermilk. All right. Thank you.
    And quickly, as we're going to look at port security very 
quickly, I perceive we're going to have some challenges with 
potential of the TPP coming through as well as lifting 
sanctions on Iran. How are we going to ensure that cargo coming 
into the United States is safe, especially that may be coming 
from a nation that is sworn to the destruction of the United 
States, but also opening up free trade, which I'm all in favor 
of, but also knowing that we have a responsibility to ensure 
that what is coming into the nation is safe, is secure, it's 
legal, and it doesn't bring harm to the United States? Are you 
guys looking at advanced technologies and techniques to deal 
with the increased load of imports coming into the United 
States?
    Dr. Brothers. Absolutely. We're also working with our 
partners with DNDO as well to look at the different modalities 
of threat to come in. We're looking at it from the perspective 
of integrated systems assistance, whether that's the actual 
screening technology itself or whether that's bringing 
information from disparate sources and infusing it in a way to 
get better decision support.
    Chairman Smith. Thank you, Mr. Loudermilk.
    The gentleman from Illinois, Mr. LaHood, is recognized of 
his questions.
    Mr. LaHood. Thank you, Mr. Chairman, and Dr. Brothers, 
thank you for being here today and for your testimony.
    Following up on Congressman Loudermilk's line of 
questioning there on the Inspector General's report that found 
the failure of TSA to find the mock explosives and the banned 
weapons over 95 percent of the time, so since that occurred and 
the analysis that was generated from that, if another say, mock 
test was done today, what would be different?
    Dr. Brothers. I believe the results would be different but 
I think this type--it'd be good to get back to you on a 
classified discussion of some of the changes, if you like, that 
have been made.
    Mr. LaHood. Are you confident there would be a different 
outcome of that was done today?
    Dr. Brothers. I believe there would be a different outcome, 
yes.
    Mr. LaHood. And in terms--I know there was a reference 
earlier--and by the way, I'd love to have a follow-up on that--
--
    Dr. Brothers. Sure.
    Mr. LaHood. --to learn more about that and what's occurred 
with the new technology.
    There was a reference earlier about drones, and I guess 
thinking about how we balance drones and the technology with 
the private sector and letting them innovate and expand and 
privacy rights and also security, can you comment a little bit 
on the direction we're headed on that and that appropriate 
balance moving forward.
    Dr. Brothers. So you know, the FAA is looking at 
regulations of having folks register, drone users register. One 
of my approaches, quite frankly, has been, when I was in 
Silicon Valley a couple weeks ago was to talk to some of the 
manufacturing community and say, you know, you really need to 
get involved in these discussions because they're important. 
There's a tremendous tradeoff between the commerce potential 
for these devices as well as the threat, and so I've been 
personally engaged with some of the manufacturing community of 
drones to understand their potential capabilities going forward 
as well as to get their input into what makes sense in terms of 
counter-drone technologies as well as some policy issues.
    Mr. LaHood. And are you working actively with the FAA on 
their----
    Dr. Brothers. We are.
    Mr. LaHood. And when do you anticipate that will be ready 
to go?
    Dr. Brothers. I can't tell you. I do not know. I cannot 
tell you that. That's something that I think is still a work in 
progress.
    Mr. LaHood. Another issue that we discussed last week in 
this Committee was the issue of cybersecurity, and in looking 
at your particular Department and investing appropriately in 
research and development programs that will address rising 
security concerns as it relates to cybersecurity, can you 
comment on that a little bit?
    Dr. Brothers. I'm sorry. Could you repeat the question?
    Mr. LaHood. Yeah. We had a hearing last week on 
cybersecurity and specifically involving power systems and some 
of the issues related there in looking at the threats that are 
out there. In looking at your Department and specifically with 
research and development, can you comment on how your 
Department's addressing that?
    Dr. Brothers. I can. We've put a focus on cyber-physical 
systems, which one substantiation of cyber-physical systems is 
a SCADA system, control systems for, let's say, power plants, 
these kinds of things. I think this is an area of increasing 
concern, and we're working with our partners at Infrastructure 
Protection over at NPPD as well. So we're putting together a 
program to address the threats to not just the power grid but 
also financial sector and the other critical infrastructure 
sectors as well.
    Mr. LaHood. Thank you. I yield back, Mr. Chairman.
    Chairman Smith. Thank you, Mr. LaHood.
    The gentleman from Michigan, Mr. Moolenaar, is recognized 
for his questions.
    Mr. Moolenaar. Thank you, Mr. Chairman, and Dr. Brothers, 
thank you for being here with us today.
    I was looking through your background, and I noticed you 
were with the Department of Defense, and I wondered if you 
could tell me what the research and the work that you're doing 
now versus the research that's done at the Department of 
Defense, what are the similarities and differences between 
Homeland Security Science and Technology and Department of 
Defense?
    Dr. Brothers. A major similarity is the importance of the 
missions. I mean----
    Mr. Moolenaar. I'm sorry. The----
    Dr. Brothers. Of the fundamental importance of the missions 
with the Department of Defense, the Department of Homeland 
Security. Major differences have to do with the difference in 
the budgets of the departments, the fact that a lot of what we 
do buy, what our components buy are off the shelf. The fact 
that, for example, particularly for our first responder 
stakeholders affordability is a big concern. So whereas the 
Department of Defense you may find work in hypersonics, for 
example, you would not find that type of work in DHS.
    That said, where our challenges may not be to exploit new 
types of propulsion technologies, our challenges are to get 
effective capabilities to our stakeholders that have minimal 
training time and much smaller budgets. So whereas the 
Department of Defense, the resources are there to do 
significant training, that's not necessarily so with our 
stakeholders.
    Mr. Moolenaar. And then I noticed the Integrated Product 
Teams, you have five different areas. Is that too many? I mean, 
it seems like a pretty--I mean, they're all very complicated, 
challenging areas. Are there one or two that you prioritize 
over the other ones?
    Dr. Brothers. I don't think so. I think these--the 
Integrated Product Teams actually came from QHSR, so if you 
look at the different mission sets, that's where they were 
derived, and I think that there was strong reasons for having 
that set of missions defined in the QHSR and that's why we have 
the IPTs set up that way.
    Mr. Moolenaar. Okay. And then when you have agencies that 
would have a common interest, is there ever kind of this 
concept of skin in the game where you have agencies 
contributing to pooling resources to fund a project?
    Dr. Brothers. So for example, we have some of the work we 
do at the borders, sir. Customs and Border Protection is 
working with us, is co-funding some of that work. So the answer 
to your question is yes.
    Mr. Moolenaar. Okay. And have you been able to find--I'm 
sure just with your experience in defense as well as, you know, 
the other areas, do you feel like we're doing this the most 
efficient way or--you know, I could imagine at a large 
corporation when they have a research component, you know, 
sometimes it's centralized and different entities feed into 
that, and there're places each of the different entities would 
have their own research component. Do you feel that we're doing 
things the best way, most efficient way possible here in the 
Federal Government?
    Dr. Brothers. So I appreciate you bringing that up because 
of time constraints, I wasn't able to talk about that in my 
opening statement, but I think that structure is one that we're 
trying to implement right now. So when I was in the Department 
of Defense, one of my challenges was trying to understand how 
to make the Department of Defense laboratories more effective, 
if you will, and I started looking at different business 
models, corporate models, and it's just like what you say. If 
you go to a lot of the large corporations, what you find is, 
they'll have a central research facility that tends to look at 
cross-cutting, more basic research areas. Then the business 
areas, whether--let's take a defense contractor that might have 
an electronic warfare business unit that might have a platform 
business unit, communications business unit. Each one of these 
business units independently have their own R&D section as 
well. This will be more applied.
    What I found with the more effective of these corporations 
was, there was a constant interplay between the staff at the 
central research facility and those at the business unit. Why 
is that important? It's important because you need the 
researchers to understand the market dynamics and you need the 
applied engineers to understand the art of the possible from 
the basic research. And so we've done that. We started with our 
Pioneer program. The Pioneer program actually puts our staff 
into, right now into the Coast Guard, for example, into their 
R&D center. We've also put our staff on the borders to 
understand how the border operators operate.
    So I think, getting to your point, a more efficient 
operation is that type of model, and that's something we're 
trying to do right now. We've already had a number of these 
Pioneer events. We're setting up work with the Coast Guard to 
collaborate on research right within the Coast Guard. So I 
think that is an effective model.
    Mr. Moolenaar. Okay. Thank you very much.
    Dr. Brothers. Thank you.
    Mr. Moolenaar. Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Moolenaar.
    The gentleman from Louisiana, Mr. Abraham, is recognized.
    Mr. Abraham. Thank you, Mr. Chairman, and thank you, Dr. 
Brothers, for being here.
    Let me pony a little bit on Mr. Moolenaar's first question 
because we are actively in budget talks even as we speak today 
and hopefully being good stewards of the people's money, what 
is S&T doing to ensure that DHS is not duplicating other 
research in other federal agencies, and the second part of that 
question, how do you guys prioritize your research?
    Dr. Brothers. The first part of the question, right now in 
one of the Secretary's Unity of Effort initiatives, we're 
involved in the Joint Requirements Council. The Joint 
Requirements Council really does the vetting of acquisition 
programs and these kinds of things, developing the 
requirements, et cetera. We're part of that process, and as 
being part of that process, we're able to give our input into 
the art of the possible, into what technology's out there.
    Internally in S&T, what we tried to do, and I think we've 
done an effective job of this, is to give our program managers, 
our leaders, access to a variety of different tools to 
understand what is out there. So Centers of Excellence were 
mentioned earlier. So access to university programs. 
Laboratories were mentioned earlier as well. There are 
laboratories.
    Mr. Abraham. Do you guys hear of any computer programs that 
would actually send an alert if you're doing research on the 
same topic?
    Dr. Brothers. I can't--so what we do have is the ability to 
influence the acquisition through the process of the Joint 
Requirements Council. I can't say we have a computer program 
that generates alerts on everyone's desk but we have effective 
input into the acquisition review board information.
    Mr. Abraham. And the second part, the prioritization of the 
research.
    Dr. Brothers. The prioritization of research is now being 
done based on the Secretary's direction through this Integrated 
Product Team structure, and this is where we have components 
who collectively evaluate what capability gaps there are. We 
then base our research on what those gaps--what gaps come out 
of that process.
    Mr. Abraham. And I'm assuming you guys have regular 
meetings that you look at this research and say well, this one 
needs to go to the top and this one can be----
    Dr. Brothers. Correct. So we have portfolio reviews as 
well. So once we have defined what direction we'll take in 
terms of our prioritization of our investments, we then do an 
annual review on these investments.
    Mr. Abraham. And what is S&T's role in the DHS 
acquisitions?
    Dr. Brothers. So we have authority to do operational tests, 
to oversee operational tests and evaluation, and we're now 
getting involved in the system engineering up front for 
acquisition programs as well as developmental testing as well. 
So it's the testing and engineering up front. The back end is 
system engineering up front.
    Mr. Abraham. Thank you, Mr. Chairman. I yield back.
    Dr. Brothers. Thank you.
    Chairman Smith. Thank you, Mr. Abraham.
    We have no other Members who are here to ask questions but 
we had a nice, full contingent today. So Dr. Brothers, thank 
you for appearing, thank you for the information, and to follow 
up on a couple of things that you said earlier, we'll look 
forward to a classified briefing at some point to address some 
of the issues that were brought up earlier.
    But I appreciate what you're doing at the Department of 
Homeland Security, and we'll be in touch. Thank you very much.
    [Whereupon, at 11:25 a.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by The Hon. Reginald Brothers

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
